Audit of USAID/Dominican Republic’s Management
of U.S. Personal Services Contractors

Audit Report Number 9-517-04-001-P

January 23, 2004




                   Washington, D.C.
Page intentionally left blank.
January 23, 2004



To:          USAID/Dominican Republic Director, Elena Brineman

From:        IG/A/PA Director, Nathan S. Lokos /s/

Subject:     Audit of USAID/Dominican Republic’s Management of U.S. Personal
             Services Contractors (Report No. 9-517-04-001-P)

This memorandum transmits our final audit report on the subject audit. In finalizing
the report, we considered your comments on our draft report and have included this
response as Appendix II.

This report includes three recommendations to strengthen USAID/Dominican
Republic’s management of U.S. personal services contracts. In your written
comments, you concurred with these recommendations and identified actions taken
to address our concerns. Therefore, we consider that final action has been taken on
all recommendations.

I want to express my sincere appreciation for the cooperation and courtesies
extended to my staff during the audit.




                                                                                       1
Page intentionally left blank.




                                 2
Table of   Summary of Results                                        5
Contents   Background                                                5

           Audit Objectives                                          6

           Audit Findings:                                           6

                  Did USAID/Dominican Republic determine
                  its requirement for U.S. personal services
                  contractors in accordance with USAID
                  policies and procedures?                           6

                  Did USAID/Dominican Republic award U.S.
                  personal services contracts in accordance with
                  selected USAID policies and procedures?            7

                         Mission Guidance to Selection
                         Panels Should Be Revised                    8

                         Mission Should Convert USPSC Position
                         from Foreign Service to General Schedule    9

           Management Comments and Our Evaluation                   10

           Appendix I - Scope and Methodology                       13

           Appendix II - Management Comments                        15




                                                                         3
Page intentionally left blank.




                                 4
Summary of
Results
             This audit, which was performed by the Office of Inspector General's Performance
             Audits Division, is the pilot in a series of worldwide audits and was conducted to
             determine (1) how USAID/Dominican Republic established its staffing
             requirements for U.S. personal services contractors (USPSCs) and (2) whether it
             awarded U.S. personal services contracts in accordance with selected USAID
             policies and procedures. The audit concluded that the Mission had determined its
             USPSC staffing requirements in accordance with USAID policies and procedures
             (see page 6) and had awarded its U.S. personal services contracts in accordance
             with selected USAID policies and procedures (see page 7).

             Nevertheless, we did note that the Mission had filled one USPSC position with
             an individual initially ranked in fourth place rather than with higher-ranked
             applicants and that the pertinent file did not adequately document why this
             decision had been made (see page 8). Moreover, we found that one USPSC was
             graded according to the Foreign Service pay schedule and needed to be converted
             to the applicable General Schedule grade (see page 9). We made three
             recommendations to address these issues (see pages 9 and 10).

             USAID/Dominican Republic management concurred with all three audit
             recommendations and described actions taken to implement the
             recommendations (see page 10).



Background
             USAID's complex personnel system encompasses several categories of
             employees. The primary workforce includes four distinct groups: (1) U.S.
             foreign service, (2) U.S. civil service, (3) U.S. personal service contractors
             (USPSCs), and (4) foreign service national and third country national1 direct hire
             and non-U.S. personal service contractors. This audit focused on USPSC
             employees. The Foreign Assistance Act authorizes USAID to award personal
             services contracts—which are contracts for employment—and, for most
             purposes, USPSCs are considered employees of the U.S. Government.

             Overseas the mix of direct hire employees, contractors, and other non-direct hire
             staff varies from country to country. The need for USPSCs is affected by a
             number of factors, such as limitations on operating expense funds, availability of
             educated/experienced local job applicants, and the nature of mission
             development activities, all of which contribute to the unique “personnel profile”
             of each USAID field unit.

             1
              Foreign service nationals are hired in their country of citizenship through the local USAID
             mission. Third country nationals are hired from a third country.



                                                                                                            5
                   USAID/Dominican Republic projected a need for six USPSCs in its Mission
                   strategic plan. At the time of the audit, the Mission had four of its six USPSC
                   positions filled (senior economic policy advisor, senior democracy policy advisor,
                   democracy initiatives specialist, and general services officer) and two of the USPSC
                   positions vacant (senior technical advisor for the health strategic objective and an
                   untitled position for a cross-border activity).



Audit Objectives   The Office of Inspector General's Performance Audits Division conducted this audit
                   as part of its annual audit plan to answer the following audit objectives:

                   Did USAID/Dominican Republic determine its requirement for U.S. personal
                   services contractors in accordance with USAID policies and procedures?

                   Did USAID/Dominican Republic award U.S. personal services contracts in
                   accordance with selected USAID policies and procedures?

                   Appendix I contains a complete discussion of the scope and methodology for the
                   audit.


Audit Findings     Did USAID/Dominican Republic determine its requirement for U.S. personal
                   services contractors in accordance with USAID policies and procedures?

                   USAID/Dominican Republic determined its requirements for U.S. personal
                   services contractors (USPSCs) in accordance with USAID policies and
                   procedures.

                   Those policies and procedures are contained in USAID’s Automated Directives
                   System (ADS) in the form of a USAID General Notice addressing the
                   “Appropriate Use and Funding of USAID’s Non-Direct Hire Workforce.”2 This
                   notice provides USAID managers with information and guidance on the
                   appropriate roles, responsibilities, and employment mechanisms for the various
                   types of personnel working with USAID. For example, among other things, the
                   notice states that:

                          •   Direct hire U.S. citizens shall perform the basic work of USAID.

                          •   The first option for filling a position that must be filled by a U.S. citizen
                              is the assignment of a direct hire employee.



                   2
                       ADS 400 Series Updates, Part I, 1995 #2




                                                                                                         6
     •   A USPSC should only be considered when the staffing requirement is
         clearly temporary, when the local recruitment of U.S. citizens is uniquely
         suitable, or when all alternatives for utilizing direct hires have been
         exhausted.

According to Mission officials, USAID/Dominican Republic—like other
USAID overseas missions—is allocated a set number of U.S. direct hire
(USDH) positions based on a variety of factors, including, but not limited to, the
complexity of the program, the level of funding, and whether the Mission
provides regional services. USAID/Dominican Republic has used these limited
direct hire positions to staff the basic functions of the Mission, such as those
performed by the director, the controller, and the regional contracting officer.
This limited availability of USDHs necessarily impacts how the Mission is able
to fill other positions requiring U.S. citizens. When Mission management is not
successful in petitioning USAID/Washington for additional USDHs, it looks to
other mechanisms to fill positions that do not absolutely require direct hire
authorities.3

This was the case with the deputy team leader positions for both the Mission’s
economic growth and democracy teams. For a variety of reasons, such as the
need for broad international expertise and the greater credibility given to
Americans by host country counterparts when discussing government policy,
Mission officials felt it was important to fill the positions with U.S. citizens.
Given the lack of available USDH positions, the Mission filled these jobs with
USPSCs. Similarly, when USAID/Dominican Republic’s executive officer and
program officer positions were temporarily vacant, the Mission filled the
positions with USPSCs. Both of these positions were ultimately filled by
USDHs.      In our opinion, USAID/Dominican Republic determined its
requirement for the above-mentioned positions, as well as its other USPSCs, in
accordance with USAID policies and procedures.


Did USAID/Dominican Republic award U.S. personal services contracts in
accordance with selected USAID policies and procedures?

USAID/Dominican Republic awarded its U.S. personal services contracts in
accordance with selected USAID policies and procedures, including those for full



3
  USAID Acquisition Regulation Appendix D, Section 4.b.3, indicates that personal services
contractors cannot (1) supervise USDH or other U.S. government employees, (2) be designated as
contracting officers or delegated authority to sign obligating or sub-obligating documents, (3)
communicate a final USAID policy, planning or budget decision unless that communication has
been cleared by a USDH, and (4) make a final decision on personnel selection. The Assistant
Administrator for Management must approve exceptions to these limitations.




                                                                                             7
and open competition4, establishing salaries, and fringe benefits. However, we
did note two issues concerning the documentation of a key decision and
classification of a USPSC that Mission management should address. These
issues are discussed in detail later in this report.

USAID/Dominican Republic followed key USAID policies and procedures for
full and open competition, establishing salaries, and fringe benefits in awarding
U.S. personal services contracts. For example, two USPSCs—the senior
democracy policy advisor and the senior economic policy advisor—were
internationally recruited and hired under full and open competition. Moreover,
while two locally hired USPSCs (the general services officer and democratic
initiatives specialist) were hired without full and open competition, the Mission’s
contracting files contained the necessary justifications for these exceptions.
Similarly, we found that with the exception of the democratic initiatives
specialist (discussed in detail later in this report), the salaries of the active
USPSC positions were established in accordance with USAID policy. Finally,
we determined that all four active USPSCs received the correct benefits to which
they were entitled.


Mission Guidance to Selection
Panels Should Be Revised

The Federal Acquisition Regulation (FAR) and the USAID Acquisition
Regulation (AIDAR) govern all direct procurement done by USAID. AIDAR
Chapter 7, Appendix D, Section 7(e), requires that the selection of a personal
services contractor be documented and justified. Moreover, the Standards for
Internal Control in the Federal Government issued by the General Accounting
Office in November 1999 states that significant events need to be clearly
documented and that the documentation should be readily available for
examination.

During the audit, we determined that the Mission had not adequately documented
the basis for selecting one of its USPSCs—a senior economic policy advisor.
Although this individual had initially been ranked fourth out of ten candidates by
the Technical Selection Panel reviewing applications, he was ultimately awarded
the contract. Further inquiries revealed that this occurred because two of the top
three candidates removed themselves from the competition (for either personal or
professional reasons) and the responses from the remaining candidate’s
references made him less competitive. Consequently, the applicants were re-
scored, and the one who was originally fourth became the highest-ranked
candidate. Unfortunately, the explanation as to how this individual rose from


4
 Full and open competition means all responsible sources are permitted to compete for a contract
under specifically prescribed procedures, such as sealed bids and competitive proposals.



                                                                                               8
being the fourth to the top candidate—and was ultimately awarded the contract—
was not adequately documented in the Mission’s files.

This occurred because the necessary documentation explaining the changes was
never finalized. The Chairman of the Technical Selection Panel (TSP) did send
the Mission executive officer and the regional contracting officer an email
requesting that contract negotiations be initiated. However, this email did not
provide a sufficient explanation as to why that particular candidate had been
selected. In fact, in his response to that email, the regional contracting officer
requested that the Chairman of the TSP prepare a “stronger” memorandum
detailing that the candidates had been reviewed and re-ranked after conducting
reference checks. The regional contracting officer also noted that the
memorandum needed to provide the reason why the lower ranked candidate had
moved to the top. Nevertheless, despite the guidance provided by the regional
contracting officer, the Chairman of the TSP did not finalize that “stronger”
memorandum, reportedly due to other, competing priorities. Consequently, the
basis for a key procurement decision was not adequately explained and
documented, as required by the AIDAR and the Standards for Internal Control in
the Federal Government.

To address this oversight and to help prevent a future omission, we are making
the following recommendations.

       Recommendation No. 1: We recommend USAID/Dominican
       Republic include a memorandum in the contracting file to
       explain the selection of the lower-ranked candidate in filling
       the senior economic policy advisor position.

       Recommendation No. 2: We recommend USAID/Dominican
       Republic revise its written instructions currently provided to
       selection panels to include procedures on how to document any
       changes in the rank ordering of candidates due to interviews,
       reference checks, etc., after the initial ranking of individuals.


Mission Should Convert USPSC Position
From Foreign Service to General Schedule

Contract Information Bulletin (CIB) 96-8, dated February 23, 1996, states that
USAID uses the General Schedule scale as a basis for salary negotiation for
USPSC positions. Contrary to this guidance, the Mission’s USPSC democratic
initiatives specialist was classified under the Foreign Service pay schedule. This
occurred because the position was advertised and filled at the Foreign Service 03
level in 1992—well before the issuance of CIB 96-8 (which states that positions




                                                                                9
                 held by USPSCs are considered “rank-in-position”5 and not “rank-in-person”).
                 According to USAID/Dominican Republic officials, similar USPSC positions at
                 USAID/Haiti, which receives contracting services from USAID/Dominican
                 Republic, had been converted from the Foreign Service to the General Schedule
                 once the positions were vacated. Consequently, USAID/Dominican Republic’s
                 Foreign Service grading of its USPSC position is inconsistent with similar
                 positions and does not comply with CIB 96-8.

                 To address this situation, we believe a review of USAID/Dominican Republic’s
                 democratic initiatives specialist position and scope of work should be done to
                 determine the appropriate General Schedule grade. The democratic initiatives
                 specialist position should then be converted from the Foreign Service to the
                 General Schedule when the incumbent vacates the position. Accordingly, we are
                 making the following recommendation.

                         Recommendation No. 3: We recommend USAID/Dominican
                         Republic agree to convert its democratic initiatives specialist
                         position from a Foreign Service to a General Schedule position
                         upon the departure of the incumbent.


Management       In its response to our draft report, USAID/Dominican Republic concurred with
Comments and     our recommendations and described actions taken to address them. We believe
Our Evaluation   the actions taken by the Mission should significantly strengthen the Mission’s
                 management of U.S. personal services contracts.

                 To address Recommendation No. 1, the Chairman of the Technical Selection
                 Panel prepared a memorandum that explained the process and justification for
                 selecting the lower ranked candidate in filling the senior economic policy advisor
                 position. Copies of the memorandum were provided to the regional contracting
                 officer and executive officer.

                 To address Recommendation No. 2, USAID/Dominican Republic prepared a
                 memorandum that provides written guidance on establishing criteria for
                 determining the most qualified candidate and identifying the relative importance
                 of each criterion. This memorandum requires that the technical selection panel
                 prepare a selection memorandum describing the methodology used in the review,
                 scoring, and ranking of the individual applications and documenting the opinions
                 considered from the interviews. Moreover, in the event that reference checks or
                 other information changes the rank order of candidates, such changes must be
                 fully documented in the selection memorandum. Finally, the selection


                 5
                  Rank-in-position means that the grade of a position is established based on the work to be
                 performed, rather on the personal grade of the person filling the position.



                                                                                                               10
memorandum will be signed by the selecting official and signed and cleared by
the other panel members.

To address Recommendation No. 3, USAID/Dominican Republic agreed to
reclassify its democratic initiatives specialist position from a Foreign Service to a
General Schedule position upon the departure of the incumbent.

Based on the actions the Mission has taken to address each recommendation, we
concluded that final action has been taken on all recommendations.




                                                                                  11
Page intentionally left blank.




                                 12
                                                                                     Appendix I

Scope and     Scope
Methodology
              The Office of Inspector General’s (OIG’s) Performance Audits Division conducted
              an audit of USAID/Dominican Republic’s management of U.S. personal services
              contractors. The audit was conducted in accordance with generally accepted
              government auditing standards.

              This audit was the first in a series that will comprise the OIG’s worldwide audit of
              USAID’s management of U.S. personal services contractors. Audit fieldwork was
              performed at USAID/Dominican Republic from September 9 through September
              26, 2003. The scope of the audit of USAID/Dominican Republic included review
              of the four personal services contracts that were active as of August 31, 2003. The
              estimated value of these contracts was $849,988.

              This audit included an examination of management controls, including those
              associated with determining Mission staffing needs and the Mission’s competitive
              procurement of, setting of salaries for, and awarding of fringe benefits to U.S.
              personal services contractors (USPSCs). These controls included the Mission’s
              strategic plan, which is reviewed and approved by the Bureau for Latin America
              and Caribbean (LAC). In addition, the Mission’s annual report and activities-
              approval documents for its strategic objectives address the allocation of foreign
              service nationals, U.S. direct hires (USDHs), and USPSCs. Management controls
              over USPSCs include guidance contained in the USAID Acquisition Regulation
              (AIDAR) Chapter 7, Appendix D, various contract information bulletins, and
              acquisition and assistance policy directives. In planning the audit, we considered
              prior relevant audit findings.

              Methodology

              In performing the audit, we examined pertinent documentation and discussed
              audit-related issues with responsible officials in USAID’s Office of Human
              Resources, the Bureau for LAC, the Office of Procurement in Washington, D.C.
              and at USAID/Dominican Republic. The audit work in USAID/Washington
              focused on guidance provided to USAID/Dominican Republic on manpower
              requirements and policies and procedures on competition, setting salaries, and
              benefits provided to USPSCs. The audit work at USAID/Dominican Republic
              focused on efforts to determine manpower requirements; the “mix” of labor (e.g.,
              USPSCs, USDHs, foreign service nationals); and the implementation of
              competition, salary setting, and benefits aspects of U.S. personal services
              contracting. Our audit included a review and analysis of (1) information
              included in the Mission’s active USPSC personnel files, (2) the Mission’s five-
              year strategic plan, (3) the Mission annual report for 2003 to the LAC Bureau,



                                                                                               13
and (4) activities-approval documents. This audit did not assess the overall
economy and efficiency of the USAID/Dominican Republic personal services
contracting process.




                                                                          14
                       This page intentionally left blank.                               Appendix II


Management
Comments

                       UNITED STATES AGENCY FOR INTERNATIONAL DEVEOPMMENT
                                                 Santo Domingo, Dominican Republic


                                                                  UNITED STATES GOVERNMENT
                                                                               MEMORANDUM

Date:                     December 22, 2003
To:                       Nathan S. Lokos. IG/A/PA Director
From:                     David A. Delgado, Acting Director/ USAID/DR /s/
Subject:                  Audit of USAID/Dominican Republic’s Management of U.S.
                          Personal Services Contractors (Report No. 9-517-04-00X-P)

Below are the Mission’s responses to each audit recommendation.

Recommendation No. 1:           We recommend USAID/Dominican Republic include a
memorandum in the contracting file to explain the selection for the lower ranked candidate
in filling the senior economic policy advisor position.

Mission concurs with the recommendation. Attached is a copy of the memorandum written by
Donnie Harrington, Chairman of the Technical Selection panel for the senior Economic Policy
Advisor position. The Mission believes this satisfies the recommendation and requests closure.

Recommendation No. 2: We recommend USAID/Dominican Republic revise its written
instructions currently provided to selection panels to include procedures on how to document any
changes in the rank ordering of candidates due to interviews, reference checks, etc., after the initial
ranking of individuals.

Mission concurs with this recommendation. Attached is a copy of the new written guidance provided to
selection panels. The Mission believes this satisfies the recommendation and requests closure.

Recommendation No. 3: We recommend USAID/Dominican Republic convert its democratic
initiatives specialist position from Foreign Service to the General Service in terms of classification
and determine the appropriate General Service schedule level.




                                                                                                       15
The Mission concurs with the intent of this recommendation and will convert the position to a General
Schedule position classification upon the departure of the incumbent. The incumbent was hired more
than 10 years ago when the position was correctly classified under the Foreign Service classification
system. To re-classify the position while the incumbent is in the position unfairly disadvantages the
incumbent. The Mission consulted with Tom Henson of M/OP for a determination of the proper course
of action. Mr. Henson stated that because the incumbent was properly hired when the position was
classified under the Foreign Service system and a change to the classification would unfairly penalize the
incumbent that the incumbent could be “grandfathered”. In accordance with the M/OP policy
interpretation, the position will be converted to a General Schedule classification upon the departure of
the incumbent. The Mission believes this satisfies the recommendation and requests closure.




                                                                                            Appendix II




                                                                                                             16
